 U.S. Department of the Interior
 Offke of Inspector General




         ADVISORY REPORT


ROYALTY-IN-KIND DEMONSTRATION PILOTS,
   MINERALS MANAGEMENT SERVICE

               REPORT NO. 99-I-371
                  MARCH 1999
                                                                                    C-IN-MMS-002-98-R


               United States Department of the Interior
                                 OFFICE OF INSPECTOR GENERAL
                                          Washington, D.C. 20240                 MAR 2 9 19%
                                   ADVISORY REPORT

Memorandum

To:         Director, Minerals Management Service

From:       Robert J. Williams “““Q. !%!b
            Assistant Inspector General for udits

Subject:    Advisory Report on Royalty-in-Kind Demonstration Pilots, Minerals
            Management Service (No. 99-I-37 1)

                                       INTRODUCTION
This report presents the results of our audit of the Minerals Management Service’s royalty-
in-kind demonstration pilots. This audit was performed as part of our biennial audit
requirement of the Federal Royalty Management System for fiscal years 1998 and 1999. The
objective of our audit was to determine whether the royalty-in-kind pilots will result in an
adequate feasibility test of the royalty-in-kind concept. A second report will contain the
results of our audit of the oil royalty-in-kind program for small refiners.

BACKGROUND

Under the terms of Federal oil and gas leases,’ the Federal Government may choose to
receive its royalty share of oil and gas production either in-kind (receiving a physical share
of the production) or in-value (receiving a cash payment). This authority is established in
the Mineral Leasing Act of 1920 and the Outer Continental Shelf Lands Act of 1953.
Historically, the Minerals Management Service has chosen to receive cash payments. Since
the 198Os, however, the Service and the oil and gas industry have frequently disagreed on
the appropriate value to use in computing royalty payments under the royalty-in-value
system. Consequently, oil and gas industry officials are advocating that the Service take its
royalties in-kind. Industry offtcials state that a royalty-in-kind system would eliminate
valuationdisputes and appeals, increase revenue collections for the Government, require less
audit verification, and reduce administrative costs for both the Government and industry.
                                                         2
The oil and gas industry supports proposed legislation that would require that the Federal


‘An exception applies to leases issued under Section 6 of the Outer Continental Shelf Lands Act. For these
leases, the lessee has the option to pay its royalties in-kind. Section 6 leases account for less than 3 percent
of total Federal production.

2The Royalty Enhancement Act of 1998 was mtroduced in the second session of the 105th Congress in both
the House of Representatives (H.R. 3334) and the Senate (S. 1930).
Government establish a royalty-in-kind system for all Federal leases, with only limited
exceptions. Conversely, the Service maintains that a mandatory royalty-in-kind program
would result in reduced revenue collections, and it therefore believes that the Government
should retain its flexibility to choose between royalty-in-kind or royalty-in-value collections
on a lease-by-lease basis to maximize overall revenue collections.

In an effort to determine whether a royalty-in-kind system might eliminate disputes and
improve the royalty collection process, the Service conducted a demonstration pilot in 1995,
known as the Royalty Gas Marketing Pilot. During the Pilot, natural gas was taken in-kind
from 79 leases in the Gulf of Mexico, which represented 6 percent of the royalty gas volume
in the Gulf. The Service concluded, in its September 1996 report “Minerals Management
Service Royalty Gas Marketing Pilot,” that the Pilot was an operational success but that the
amount ofroyalties collected was 6.5 percent less than what would have been collected under
the in-value system. When projected to the Gulf of Mexico lease universe, the Service
estimated that a royalty loss of $82 million would have resulted for the year.

Following the 1995 demonstration pilot, the Service continued to examine the
royalty-in-kind concept. In its August 1997 report “1997 Royalty In Kind Feasibility
Study,” the Service concluded that when managed correctly, royalty collections under a
royalty-in-kind system could maintain or exceed the amounts collected under the in-value
system and that the Service and industry could realize administrative efficiencies. The report
recommended that pilots be conducted in areas considered to have the greatest potential for
success, primarily the Gulf of Mexico for gas and the State of Wyoming for oil.

In accordance with the feasibility study, the Service plans to implement a royalty-in-kind
program consisting of three demonstration pilots. The program, which was scheduled to
begin in October 1998 and last for up to 6 years (September 2004), will take oil volumes in-
kind in Wyoming and gas volumes in-kind from two offshore areas in the Gulf of Mexico.
The Service anticipates that the three pilots will provide it with operational experience in
managing a royalty-in-kind program and in evaluating the feasibility of a permanent
royalty-in-kind program.

SCOPE
We reviewed the Minerals Management Service’s royalty-in-kind activities conducted since
the Service’s 1995 Royalty Gas Marketing Pilot. The audit was performed from April
through October 1998 at the Service’s Royalty Management Program offices in Lakewood,
Colorado. To accomplish the audit objective, we interviewed Service officials who were
involved in planning and administering the pilots. We interviewed other Service officials
and officials from the state governments of Texas and Wyoming and the oil and gas industry
who were knowledgeable of the pilots or of the royalty-in-kind concept. We also reviewed
reports and other documents that the Service used to support the planning and
implementation of the pilots.




                                               2
The audit was conducted, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances. As part of the audit, we reviewed the internal controls to the extent
considered necessary to accomplish our audit objective. We also reviewed the Secretary’s
Annual Statements and Reports to the President and the Congress for fiscal years 1993
through 1995, which are required by the Federal Managers’ Financial Integrity Act; the
Departmental Reports on Accountability for fiscal years 1996 and 1997, which include
information required by the Act; and the Service’s annual assurance statement on
management controls for fiscal year 1997. We determined that none of the reported
weaknesses were directly related to the objective and scope of this audit.

PRIOR AUDIT COVERAGE

The General Accounting Office has issued one report on royalty-in-kind activities of the
Service during the past 5 years. The report “Federal Oil Valuation, Efforts to Revise
Regulations and an Analysis of Royalties in Rind” (No. GAORCED-98-242) was issued in
August 1998 in response to a Congressional request to address the following: “(1) the
information used by MMS [the Minerals Management Service] to justify the need for
revising its oil valuation regulations; (2) how MMS has addressed concerns expressed by the
oil industry and states in developing these regulations; and (3) the feasibility of the federal
government’s taking its oil and gas royalties in kind, as indicated by existing studies and
programs.” The report stated that the Service (1) “relied heavily” on an interagency task
force report to justify revising its oil valuation regulations and (2) solicited public comments
on its proposed regulations in five “Federal Register” notices and revised its proposed
regulations three times in response to the comments received. The report further stated that
available information “indicates that it would not be feasible for the federal government to
take its oil and gas royalties in kind except under certain conditions. These conditions
include having relatively easy access to pipelines to transport the oil and gas, leases that
produce relatively large volumes of oil and gas, competitive arrangements for processing gas,
and expertise in marketing oil and gas. However, these conditions are currently lacking for
the federal government and for most federal leases.” The report contained no
recommendations.

The Office of Inspector General has issued one audit report during the past 5 years on
royalty-in-kind activities. The report “Royalty Gas Marketing Pilot, Minerals Management
Service” (96-I-786), issued in May 1996, stated that the Service effectively administered the
1995 Royalty Gas Marketing Pilot and had demonstrated the feasibility of taking gas
royalties in-kind as an alternative to the royalty-in-value system. However, the report noted
that there were weaknesses in the areas of pilot design, revenue collections, marketing
strategies, and administrative controls. We also concluded that the 1995 pilot was too
limited in scope to accurately represent gas operations in the Gulf of Mexico. Although the
report contained no recommendations, it did contain suggestions for the Service to consider
in the design of future royalty-in-kind pilots, such as conducting larger scale pilots with
mandatory lease holder participation.

                                               3
                                     DISCUSSION
We found that the Minerals Management Service’s royalty-in-kind pilots in the Gulf of
Mexico to test gas and in Wyoming to test oil will provide the Service with the knowledge
and practical experience to implement a permanent royalty-in-kind system for those
particular regions and products. However, because the United States oil and gas industry
operates in distinct regions, we believe that the limited geographic coverage and products
included under the pilot program will not provide a conclusive royalty-in-kind feasibility
assessment for all Federal oil and gas production. The pilot program is limited because the
Service’s strategy is to conduct pilots in those areas where the Service expects to maintain
or exceed the revenues collected under the royalty-in-value system. Service officials said
that this strategy was consistent with the recommendations contained in the Service’s “1997
Royalty In Kind Feasibility Study” and that resources were not available to expand the
planned pilot program. As a result of the Service’s decision to limit the scope of its pilots,
we believe that any conclusions concerning the feasibility of a royalty-in-kind program will
apply solely to the geographic regions and products specifically studied and should not be
used to evaluate the concept on a nationwide basis.

While we believe that the Service’s strategy to maintain or exceed prior revenue collection
levels for the pilot leases has merit, we also believe that additional factors warrant
consideration. We view the pilots as an opportunity to gain knowledge through operational
experience of how a royalty-in-kind program should be managed, as well as to demonstrate
whether any advantages exist over the in-value system. We believe that by including leases
in the pilots which are not anticipated to yield the desired revenues, the Service may obtain
valuable information and learn methods to maximize the collections. This would be
consistent with the Service’s objectives of the pilots, which are “to test the propriety of the
[royalty-in-kind] concept for collecting federal . . . royalties.” Further, we believe that the
Service should be prepared to effectively implement a permanent royalty-in-kind program
for Federal leases in anticipation of the proposed legislation becoming law. Our conclusions
and suggestions to enhance the effectiveness of the pilot program are discussed in the
paragraphs that follow.

Pilot Program Progress Update

The Service was successfully managing the pilot program at the time of our review. The
pilot team was making satisfactory progress to ensure that the pilots will begin on schedule,
a representative sample of leases in each tested area will be selected, the sampled leases will
have a smooth transition from the royalty-in-value system to the royalty-in-kind system, and
the pilot results will be evaluated. The team coordinated the Wyoming crude oil pilot with
appropriate officials from the State of Wyoming and held public meetings to explain the
proposed oil royalty-in-kind program. Additionally, the Service incorporated into its pilot
program certain comments and suggestions that were contained in our audit report of the
 1995 pilot. For example, the current pilot program will consist of larger scale pilots with
mandatory participation by lease holders and will improve the marketing strategies by using
longer contract periods and include various production volume sizes in the bids. These

                                               4
improvements should increase revenue collections and the information and data obtained by
the Service.

In preparing for the Wyoming pilot, the team conducted a survey analysis of the crude oil
market and consulted with industry experts to select a representative sample of Federal oil
leases in the State. The team structured the Wyoming pilot in two phases: one phase that
will test the royalty-in-kind values by holding a sealed lease bid sale and a second phase that
will involve a contract marketing agent to maximize royalty revenues. The team received
bids on 182 properties representing 621 leases in Wyoming and accepted bids on 97 of the
properties representing 3 15 leases. According to the team, the bids on the other 85 properties
affecting 306 leases were rejected because the anticipated revenues would not equal or
exceed those expected under the royalty-in-value system.

The team was also preparing for the start of the two gas pilots in the Gulf of Mexico. For
example, the Service and the state government of Texas entered into a cooperative agreement
that details the responsibilities and expectations for the pilot to be conducted offshore Texas.
A public meeting was also held to discuss the details of the pilot.

Industry Position
Under an in-kind system, the Service would assume sole responsibility for selling the Federal
Govermnent’s royalty share ofproduction. As such, the valuation method used to determine
the Government’s share of production, which is a major factor in determining royalty
payments under the royalty-in-value system, would not apply. The royalty-in-kind concept
has received widespread support from the oil and gas industry. Based on our review, we
confirmed that the industry officials we contacted strongly supported the proposed
legislation, which would mandate a royalty-in-kind system for Federal leases. The officials
we contacted, representing individual oil and gas companies and industry trade associations,
told us that an in-kind system would more efficiently collect royalties from Federal leases.
For example, under the in-value system, the Service may audit prior year collections from
a company and determine that additional royalties are owed because the company had not
paid on the market value of the oil or gas. If the company disagrees with the Service’s
determination, an expensive and time-consuming process of formal appeals and litigation to
resolve the dispute may ensue. According to industry officials, a royalty-in-kind program
would avoid these valuation disputes by introducing “certainty”3 into Federal royalty
payment determinations. Overall, the industry, in meetings and through correspondence, has
urged the Service to forego the pilot program and adopt a nationwide royalty-in-kind system
without delay.




3”Certainty” means that the value of oil and gas for royalty payments would be established at the time of
production with no subsequent audit adjustments.

                                                    5
Scope of Pilot Program

In our opinion, the Service’s pilot program will not provide sufficient information and data
to determine whether a royalty-in-kind system would be appropriate for all Federal leases
because of the limited coverage of individual oil and gas producing regions. The oil and gas
industry and the Service recognize three distinct oil-producing regions or markets (see
Appendix 1) in the United States as follows: the States of California and Alaska; the six
“Rocky Mountain Area” States of Colorado, Montana, North Dakota, South Dakota, Utah,
and Wyoming; and the remaining states and the Gulf of Mexico. The Service identified the
three producing regions during its efforts in 1998 to revise the oil valuation regulations,
which was affirmed by written comments received from industry representatives. Similarly,
the natural gas market is not generally considered to operate uniformly in each producing
area of the country (see Appendix 2). For example, the availability and ownership of
processing plants and the relative access to a pipeline for transporting the gas to a final
market can affect sales prices in a specific production area.

We believe that the Service will not obtain sufficient information and data to implement a
mandatory nationwide royalty-in-kind program ifthe proposed legislation is enacted because
the royalty-in-kind pilots will not adequately test each of the distinct regions, Specifically,
we found the following:

        - The royalty-in-kind concept for crude oil will not be fully tested. The only pilot
scheduled for oil will be conducted in Wyoming. While Wyoming represents a major oil-
producing state, accounting for 8.5 percent of total Federal oil production in fiscal years 1994
through 1996, the GulfofMexico accounted for 65.1 percent and Califomia/Alaska(onshore
and offshore) accounted for 16.8 percent (see Appendix 1). Consequently, the Service will
not be able to determine the feasibility of taking royalties in-kind in those regions that
produce most of the oil involving royalties to the Federal Govemment.4 We suggest that the
Service consider including additional geographic areas in the pilot program.

         - The royalty-in-kind concept for natural gas also will not be fully tested. The two
pilots scheduled in the Gulf of Mexico, which accounted for 72 percent of Federal gas
production in fiscal years 1994 through 1996, will enable the Service to determine the
feasibility of taking royalties in-kind for most Federal gas (see Appendix 2). However, a
pilot is not scheduled for Federal onshore gas, which accounted for about 27 percent of the
production. Consequently, the Service will not be able to determine the feasibility of taking
royalties in-kind for onshore gas production. We suggest that the Service continue to pursue




4An oil royalty-in-kind program, which the Federal Government has operated for the benefit of small and
independent refiners, has provided the Minerals Management Service with experience in collecting royalties
in-kind; however, the objective of the program is to ensure a steady supply of oil for the eligible refiners
regardless of the amount of royalties collected. The program was not designed to explore different concepts
in collecting royalty payments or to make any comparisons to the revenues that would have been received
under the royalty-in-value system. In short, the program does not evaluate the feasibility of an in-kind system.

                                                       6
conducting pilots in New Mexico’ and/or Wyoming. New Mexico accounted for about
15 percent and Wyoming accounted for about 7 percent of Federal gas production.

We believe that unless the pilot program is expanded, the Service will not obtain the
information and data needed to operate a royalty-in-kind program for oil produced in
California/Alaska or the Gulf of Mexico or for gas produced onshore. As currently designed,
the results of the pilot will provide information and data for the Service to learn how to
operate a royalty-in-kind program only for those regions and products specifically tested.
Consequently, we do not believe that the results of the pilots, such as an increase or a
decrease in Federal royalty revenues, should be extrapolated or extended to the universe of
Federal leases. Accordingly, we suggest that the Service consider conducting pilots in each
region for both oil and gas.

Other Pilot Program Issues
In addition to considering whether to perform additional pilots in each market area, we
believe that the Service should also consider the following issues when it determines specific
areas and products to include in future pilots:

        - The pilots will not test the taking of both oil and gas from the same lease. Since
pending royalty-in-kind legislation (see footnote 2) in the U.S. Congress would require both
products to be taken simultaneously, we suggest that the Service take both products
simultaneously to identify whether any problem areas or special considerations exist.

        - In our opinion, the time frames for completing the pilots should be shortened. By
the time the last pilot is completed in fiscal year 2004, the Service will have spent 10 years
studying the royalty-in-kind concept and the program may become mandated prior to that
date. While we recognize that personnel resources are limited and that the pilot team
members are maximizing their efforts, we suggest that the Service develop alternatives to
shorten the time frames by, for example, operating the separate phases of the Wyoming pilot
concurrently instead of in succession. Also, the Gulf of Mexico pilot could be shortened
from the 5 years currently planned.

         - We believe that the Service should consider the possible cost savings to the Federal
Government and to industry associated with a reduction in the number of appeal and
litigation cases filed and the reduction in the Service’s costs (approximately $34 million in
fiscal year 1997) to administer the mineral revenue compliance program.

We agree with the Service’s position that the royalty-in-kind concept needs to be studied
carefully before full implementation is considered. The Federal lease universe consists of
almost 22,000 leases capable of production distributed among 30 states, the Gulf of Mexico,
and offshore Alaska and California. Federal leases represent about 25 percent of the oil and


‘At the time of our review, the State of New Mexico had not accepted the Service’s proposal to conduct a
royalty-in-kind pilot in that state.

                                                   7
35 percent ofthe gas produced domestically in the United States. These leases are connected
to a vast and complex infrastructure consisting of pipelines and other transportation systems,
oil refineries, gas processing plants, and market centers. Moreover, the Service collects
about $3.3 billion each year in royalties Corn Federal leases, with about $500 million of this
amount distributed to state governments. Therefore, considering the complexities of the oil
and gas business, the monetary significance of Federal lease revenues, the proposed
legislation that would mandate a royalty-in-kind program, and the Service’s limited
experience in collecting royalties in-kind, we believe that the Service should proceed
expeditiously to obtain information and data on how an in-kind program should be designed
and managed and to determine whether the presumed efficiencies over the in-value system
exist.

Minerals Management Service Response and Offke of Inspector General
Reply
In the February 16, 1999, response (see Appendix 3) to the draft report from the Director,
Minerals Management Set-vice, the Service generally agreed with the report’s findings and
conclusions. In the response, the Service included additional comments regarding the
royalty-in-kind pilot program. These comments and our replies to these comments are
provided in the paragraphs that follow.

        Minerals Management Service Comment. The Service said that the report
incorrectly assumed that the Service established the pilot program to gain experience in case
a royalty-in-kind program became mandatory through legislation. The Service stated that
instead, the purpose of the pilot program was “to test the RIK [royalty-in-kind] concept in
several strategic areas within existing staff resources to determine whether and under what
conditions taking RIK is a prudent method of managing public resources.”

The Service said that it “agreeEd] with the report’s conclusion that the . . . financial results”
of the three pilots “cannot be extrapolated” to the universe of Federal leases. However, the
Service said that experience gained in administrating the pilots will provide the agency with
certain basic operational information for implementing royalty-in-kind systems in other
market areas of the country. Additionally, the Service said that the pilots will sufficiently
evaluate each of the three study areas. Specifically, the response stated that the pilots are
designed to “test the RIK concept across all reasonable lease, transportation, and sales types.”
Additionally, the Service stated, “Because we [the Service] reject bids resulting in lower
royalties than would be received in value, we maintain or increase revenues at the same time
as receiving valuable data on all types of leases.”

The Service said that it agreed with the report’s statement that expanding the pilot program
to each producing region “would increase” the overall knowledge acquired regarding the
feasibility of the royalty-in-kind concept. However, the Service reiterated that resources
were unavailable to conduct additional pilots.
The Service stated that the Office of Inspector General “may wish to update” the references
in the report concerning the legislation that would make a royalty-in-kind system mandatory
because, according to the Service, the oil and gas industry “changed [its] view on a
mandatory, comprehensive RIK program” and “is no longer actively lobbying for passage”
of this legislation.

The Service acknowledged the report’s suggestion to complete the pilot program within a
shorter time frame, stating, “We would also like to complete the pilots and make decisions
on their results as soon as possible. However, it is our view that a robust, defensible test of
RIK concepts needs to be conducted over several business cycles to avoid the effects of
short-term market distortions.” The Service further stated that “it is possible that the pilot
results will be clear enough in a shorter time frame to base decisions on project termination
or broader application.”

         Office of Inspector General Reply. We believe the Service’s response did not
accurately reflect our understanding of the Service’s objectives for the pilot program. In the
Discussion section of the report, we quoted the Service’s written objectives as published on
its Web site (http://www.rmp.mms.gov/rikweb) for the pilot program. Although the Service
stated that we assumed that the pilots were developed as a result of the proposed royahy-in-
kind legislation, our discussion regarding proposed legislation was included solely for the
complete disclosure of current events involving the royalty-in-kind matter. Further, we
believe that the extent of the proposed legislation warrants the Service’s continued attention
to review the royalty-in-kind concept on a nationwide basis.

We agree the pilot program will adequately test the various leases contained in each area
tested by the three pilots, and the report clearly states that the pilots were properly designed.
However, our discussion regarding adequate scope coverage was directed to evaluating the
feasibility of implementing a royalty-in-kind system on a nationwide basis. Therefore, in our
view, a complete analysis must consist of a pilot being conducted in each of the major
producing regions in the country.

Finally, the oil and gas industry was promoting the proposed royalty-in-kind legislation at
the end of our fieldwork in October 1998. However, to gain support for the proposed
royalty-in-kind legislation, the bills’ sponsors had made modifications to the legislation such
as eliminating the mandatory in-kind provisions for certain marginally producing wells and
for Alaska leases. Although the bills were not passed in the 105th Congress, we believe that
the strong support for a mandatory royalty-in-kind system expressed by the oil and gas
industry during our audit exists and that industry will continue to promote such legislation.

Since this report does not contain any recommendations, a response is not required.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Service personnel in the conduct of our review.
                                                n
                                                                                                             APPENDIX 1



                                   FEDERAL OIL SALES VOLUMES’
                                        3-YEAR AVERAGE
                                            (1994-1996)

                                              Offshore                    Onshore                       Total
                                                Sales       Percent         Sales       Percent         Sales
                                               Volume       of Total       Volume       of Total       Volume Percent
                                              (Barrels)     Offshore      /Barrels)     Onshore       (Barrels)
                                                                                                       o f     T o t a l

GEOGRAPHIC PRODUCING REGIONS

      California/Alaska                    65,429,368          16.1     23,132,006        19.1       88,561,374        16.8

      Rocky Mountain Area2                             0            0   64,115.820        53.1      64,115,820         12.2

      All Other States, including
         Gulf of Mexico’                  340.02 1,626         83.9      33.536.254       27.8     373.557.880        71.0


                    Total                 405.450.994        1oo.o      120,78-t,080     1oo.o     526.235.074       1oo.o




‘Data obtained from “Mineral Revenues 1996, Report on Receipts From Federal And Indian Leases,” published by the Minerals
Management Service.

‘Consists of Colorado ( 1.3%), Montana (So/,), North Dakota and South Dakota ( 1.1 X), Utah ( .8%), and Wyoming (8.5%).

3All other states consist ofAlabama, Arkansas, Florida, Illinois, Kansas, Kentucky, Louisiana, Michigan, Mississippi, Nebraska,
Nevada, New Mexico, Ohio, Oklahoma, Pennsylvania, Texas. and West Virginia (5.9% in total) and the Gulf of Mexico (65.1%).




                                                               10
                                                                                                APPENDIX 2

                            FEDERAL GAS SALES VOLUMES’
                                 3-YEAR AVERAGE
                                     (1994-1996)

                                                                            Sales
                                                                          Volume                       Percent
                                                                          (Mcfi2                       of Total
OFFSHORE PRODUCTION

Gulf of Mexico
   Alabama                                                            107,679,995                          1.6
   Louisiana                                                        3,675,569,617                         55.7
   Mississippi                                                          4,145,058                           .l
   Texas                                                              965.199.315                         14.6

       Total Gulf of Mexico                                         4,752,593,985                         72.0

California                                                              38.642.502                        h6

       Total Offshore3                                              4.79 1.236.487                        72.6


ONSHORE PRODUCTION

New Mexico                                                           1,001,806,371                        15.2
Wyoming                                                                475,552,092                         7.2
All Other States                                                       33 1,563.468                       5.0

       Total Onshore                                                 1.808.921.931                        27.4

           Total                                                    6.600.158.418                       100.0




‘Data obtained from “Mineral Revenues 1996, Report on Receipts From Federal and Indian Leases,” published by
the Minerals Management Service.

*Thousand cubic feet. The standard unit for measuring the volume of natural gas.

‘The five states listed for offshore production also had onshore production of 103,5 16,660 Mcf, or 1.6 percent of
total production. The onshore production for these five states was included in the Onshore Production - All Other
States category.

                                                       11
                                                                                           APPENDIX 3
                                                                                           Page 1 of 3

                          United States Department of the Interior
                                  MINERALS MANAGEMENT SERVICE
                                            Washingm, CC 20240




Memorandum

To:            Assistant Inspector General for Audits

T h r o u g h : pylvia V. Baca w*w ‘@ 1 6 &J
                Acting Assistant Secretary, Land and Minerals Management

From:          Cynthia Quarterman
               Director, Minerals Managem

Subject:       Draft Advisory Report on “Royalty-m-Kind Demonstration Pilots, Minerals
               Management Service” (Assignment No. C-IN-MMS-002-98-R)

We appreciate this opportunity to comment on the subject draft report. Overall, we believe that
the report is welldone and will be helpful to us as we continue with testing the royalty-in-kind
(RIK) concept in our pilot projects.

We offer the following comments:
                  .   .
        .         iective of the Prlots; The draft report appears to assume that the intent of the
               RX pilots is to provide experience so that a mandatory RIK program could be
               effectively implemented for all leases, if such a program were to be legislated.

              This is not the intent of the RIK pilots - we currently have compelling
              information that a mandatory RIK program for all leases cannot be effectively
              implemented. We have shared this with Congress and the industry. The intent of
              the RIK pilots is to test the RIK concept in several strategic areas within existing
              staE resources to determine whether and under what conditions taking RIK is a
              prudent method of managing public resources.

        .                   of Plh&RE&& We agree with the report’s conclusion that the full
              results of the pilots - especially the financial results - cannot be extrapolated to all
              regions for all commodities due to regional market and in&structure differences.
              However, it is clear to us that experience gained in many of the broad operational
              factors involved in taking RX - operator requirements, reporting, imbalances,
              bidding, and sales methods - will apply to most, if not all, markets across the
              country. It is possible that such information will lead us to test the concept in
              other areas in the future (see below).



                                                12
                                                                            APPENDIX 3
                                                                            Page 2 of 3



                                                                                           2
.   Expansion of the Pilots: In concept, we agree that operating the projects in each
    of the major producing regions for each commodity would increase our
    knowledge of RIK feasibility. In fact, as the report notes, we have explored
    expanding the pilots to include a natural gas project in New Mexico. We also
    expect to learn more about the feasibility of RIK through the recently announced
    initiative to fill the Strategic Petroleum Reserve with royalty oil from the Gulf of
    Mexico.

    We will take the recommendation under advisement and seek opportunities to
    maximize the information to be gained, perhaps through pilot expansion. The
    idea of including both oil and gas in the same project is especially well-taken.

    However, as you are aware, we have finite resources which are spread over many
    responsibilities in managing the Nation’s mineral royalties. Thus, any expansion
    of the RIK pilots, if warranted would require additional resources to be
    appropriated for this purpose.

.   Pilot Operations: We appreciate the report’s conclusions that the pilots are being
    well-managed and are operating smoothly. With regard to pilot operations, we
    note that the report asserts that, because the pilots are designed to increase
    revenues, the full spectrum of lease situations is not tested.

    The pilots are designed to maintain or enhance revenues and, at the same time,
    test the RJR concept across all reasonable lease, transportation, and sales types.
    Although there is some natural tension between these two goals, they are both
    being concurrently fulfilled. As an example, in the Wyoming Pilot, a full range
    of lease and transportation types have been included in both bidding cycles
    conducted to date. Thus, we have received bids on leases that are both
    economically attractive and unattractive. Because we reject bids resulting in
    lower royalties than would be received in value, we maintain or increase revenues
    at the same time as receiving valuable data on all types of leases.

.   Jndustrv Position; You may wish to update this section to reflect industry’s
    changed view regarding the feasibility of a mandatory, comprehensive RIK
    program. Our understanding is that industry is no longer actively lobbying for .
    passage of HR 3334 and its Senate counterpart.

.   Pilot Duration; We appreciate the report’s recommendation to shorten the time
    f?ames for completing the RK pilots. We would also like to complete the pilots
    and make decisions on their results as soon as possible. However, it is our view
    that a robust, defensible test of RIK concepts needs to be conducted over several
    business cycles to avoid the effects of short-term market distortions. With respect
    to the large offshore gas pilot, we have been told by a host of marketing


                                    13
                                                                                      APPENDIX 3
                                                                                      Page 3 of 3



                                                                                                  3

              companies that a 4- to 5year pilot is needed so that operations can mature
              considering the size of the royalty volumes involved.

              We will keep your recommendation in mind as the pilots progress, as it is possible
              that the pilot results will be clear enough in a shorter time frame to base decisions
              on project termination or broader application.

Again, we believe the report will help us to further improve our RIK operations. We look
forward to working with you in the future on this important project.

If you have any questions concerning our comments, please contact Bettine Montgomery at (202)
208-3376.




                                               14
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov



                      Within the Continental United States

U.S. Department of the Interior                         Our 24hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-508 1 or
Mail Stop 5341                                          (202) 208-5300
Washington, D . C .20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Cadbbean Region

U.S. Department of the Interior                         (703) 2359221
Offke of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pa@2 Region

U. S . Department of the Interior                       (671) 6476060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Bakej Pavilion, Suite 306
Tamuning, Guam 96911
:     Toll Free Numbers:
  :    l-800-424-5081            D
  :    TDD l-800-354-0996
 :.                              i
-a                               E
 :    IT’S/Commercial Numbers:
 :      (202) 208-5300
:*      TDD (202) 208-2420       E
  -                              :


      1849 C Street, N.W.
      Mail stop 5341
      Washinnton. D.C. 20240
